             September 12, 2002

             MEMORANDUM

             FOR:             M/OMS, Stephen Callahan

             FROM:            IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:         Risk Assessment of Major Functions Within Overseas
                              Management Support of the USAID Bureau for Management
                              (Report No. A-000-02-004-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, this report contains a suggestion for your
             consideration. We have reviewed your comments, and they are included in
             Appendix II. I appreciate the cooperation and courtesy extended to my staff
             during the risk assessment.


Background   The Office of Administrative Services, Bureau for Management, (M/AS)
             provides logistical support services and administrative services worldwide
             and is responsible for functions costing approximately $40 million annually.
             It is comprised of the Office of the Director1 and four divisions:

             •   Consolidation, Property and Services Division,2
             •   Information and Records Division,3
             •   Overseas Management Support Division; and
             •   Travel and Transportation Division.4

             During the past decade, the Office of Inspector General has performed few
             audits of the Office of Administrative Services’ functions. In addition, the
             Office of Administrative Services has received limited external reviews and
             evaluations from other sources. Given the lack of external independent
             1
               See risk assessment Report No. A-000-02-001-S.
             2
               See risk assessment Report No. A-000-02-002-S.
             3
               See risk assessment Report No. A-000-02-003-S.
             4
               See risk assessment Report No. A-000-02-005-S.

                                                                                   Page 1 of 15
reviews, including audits, we performed risk assessments of the major
functions of the Overseas Management Support Division5 of the Office of
Administrative Services.

The General Accounting Office’s “Standards for Internal Control in the
Federal Government” (November 1999) note that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Internal controls consist of the following five interrelated components.
These components are the minimum level for internal control and provide
the basis against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive
   attitude toward internal control and conscientious management.
2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.
3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.
4. Information should be recorded and communicated to management and
   others within the agency who need it and in a form and within a time
   frame that enables them to carry out their internal control and other
   responsibilities.
5. Internal control monitoring should assess the quality of performance over
   time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The GAO
Standards note that the specific risk analysis methodology used can vary
because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned a
risk exposure of high, moderate, or low for each major function. A higher
risk exposure simply indicates that the particular function is more vulnerable
to its program objectives not being achieved or irregularities occurring.
Appendix I describes in detail our risk assessment scope and methodology.




5
  Subsequent to the completion of our fieldwork, the Overseas Management Support Division
of the Office of Administrative Services was administratively realigned to report directly to
the Office of the Assistant Administrator, Bureau for Management.

                                                                                 Page 2 of 15
Discussion   Overseas Management Support, Bureau for Management, (M/OMS) is
             responsible for the following six major functions.6 Our assessments of the
             risk exposure for each of these major functions are described below. All
             dollar amounts discussed below are approximate, unless otherwise noted.

                             Function Description                         Risk Exposure
                 Administrative purchasing for overseas posts                  Low
                                          Risk Assessment Factors
                 The administrative purchasing function for overseas posts processes
                 approximately 200 procurement actions worth $3.5 million annually
                 ($3.4 million for furniture and $100,000 for representational items).
                 While almost all the purchase requests and funding come from
                 individual missions, the actual ordering is performed by OMS. The
                 items purchased are furniture for mission residences, representational
                 items (china, crystal, flatware) for mission directors residences, and
                 some office supplies for OMS. The furniture and representational items
                 are ordered from a vendor under contract with General Services
                 Administration and the Department of State.

                 •   There have been no recent internal or external reviews of this
                     function.
                 •   One experienced staff member performs the function.
                 •   Contractors are relied on as suppliers of goods, not consultants. The
                     contracts are fixed price contracts negotiated by the Department of
                     State and the General Services Administration.
                 •   The individual missions originate the purchases and account for the
                     goods once they are delivered. The mission cannot order directly
                     from the vendors. The missions decide when to replace furniture
                     and representational items and which items to replace.
                 •   The system for tracking orders is maintained by OMS. It is paper
                     based and does not allow missions to independently track the status
                     of their purchases. OMS is pursuing an electronic ordering system
                     which will provide greater ordering efficiency and reporting
                     capability.
             .




             6
               Our risk assessments only covered major functions. In addition to major functions described
             in this report, Overseas Management Support also is responsible for employee environmental
             health, energy reporting, and overseas schools support.

                                                                                             Page 3 of 15
            Function Description                       Risk Exposure
Continuity of operations and emergency
preparedness for USAID/Washington
operations                                                Moderate
                        Risk Assessment Factors
The continuity of operations and emergency preparedness function
within OMS contributes to the USAID/Washington Continuity of
Operations Plan (COOP) by acting as the Cognizant Technical Officer
for the contract to develop, test, and maintain the COOP. OMS does not
participate in overseas missions preparedness.

•   The COOP contract is approximately $230,000.
•   The COOP is by definition sensitive, as it is the plan for carrying on
    USAID operations in the event of a significant event that disrupts
    USAID’s operations.
•   The COOP work is taking nearly 100 percent of an OMS staff’s
    work hours despite being budgeted for 25 percent in the job
    description.
•   One staff member manages the function. This staff member is
    classified and trained as a management analyst with all previous
    experience and the majority of training related to management
    analysis.
•   In October 2001, a contractor was selected to develop, test, and
    maintain USAID’s COOP.
•   Positive progress has been made in managing vulnerabilities and
    efforts have been made to allocate additional resources.




                                                                    Page 4 of 15
           Function Description                       Risk Exposure
Occupational health and safety including
evacuation plans                                            Low
                       Risk Assessment Factors
The occupational health and safety function of OMS is responsible for:
     • maintenance of the USAID/Washington Occupant Emergency
         Plan for the Ronald Reagan Building,
     • periodic inspections of USAID offices and facilities to ensure
         safety and environmental rules are being followed,
     • safety and health training for new employees, and
     • USAID’s annual report of accident experiences submitted to
         the U.S. Department of Labor.

•   The volume of work has increased recently with increased emphasis
    on the Occupant Emergency Plan following September 11, 2001.
•   There have been no recent internal or external reviews of this
    function.
•   One GS-9 staff member is responsible for this function. An
    extended absence of this staff member has resulted in additional staff
    being drawn on to update the Occupant Emergency Plan.
•   Individual health and safety training courses are not scheduled for
    2002. However, health and safety training is part of the training
    provided to new executive officers by OMS in Washington and
    regionally overseas.




                                                                   Page 5 of 15
               Function Description                           Risk Exposure
Overseas buildings and land                                        High
                          Risk Assessment Factors
• USAID owns or leases buildings and land in about 75 foreign countries.
• USAID has purchased about 100 properties (74 residences, 17 offices, 6
   warehouses, and 2 other) for $34 million since 1952. Since, the value of
   these properties are recorded at their purchase price, the $34 million does
   not reflect any appreciation in the market value of the properties. For
   example, USAID owns a residence in Indonesia with a recorded value of
   $92,105 that was purchased in 1952.
• USAID is carrying on its property inventory seven Swaziland residences
   valued at $370,000—the original purchase prices. The USAID/Swaziland
   mission officially closed in August 1996.
• 6 FAM 715.4 requires that USAID mission directors annually certify to
   the Department of State that all properties under their control are properly
   managed and used. OMS does not receive copies of these certifications.
   The certifications sent to the Department of State are used to report to the
   the President on internal controls, which is required under the Federal
   Managers’ Financial Integrity Act.
• 6 FAM 723 and 727 require a post housing profile to be submitted.
   Automated Directives System (ADS) 535, as recently amended, requires
   USAID missions, that manage their own housing program, to initially
   submit this report to OMS and also whenever the housing profile
   significantly changes.




                                                                        Page 6 of 15
               Function Description                          Risk Exposure
Overseas buildings and land (continued)                            High
                           Risk Assessment Factors
• USAID annually pays about $40 million to lease about 1,200 additional
   properties (1,030 residences, 44 warehouses, 79 offices and 21 other).
• Mission Directors, or their designees, at each mission are directly
   responsible for leasing buildings and land for USAID’s use.
• OMS reviews all leases for functional space in the approximately 75
   foreign countries that USAID rents buildings and land. Each country has
   its own property laws and bilateral treaties and other agreements with the
   United States.
• Leases for residential property costing more than $25,000 annually require
   a waiver from OMS. Two current leases were executed without required
   waivers from OMS.
• The Chief of OMS manages a property fund that is used to acquire new
   buildings and land and to retain the receipts from the sale of excess
   buildings and land. The fund currently has approximately $2 million.
• OMS is coordinating USAID’s construction of 22 new office buildings
   that is projected to cost about $480 million over fiscal years 2001 through
   2007.
• The overseas buildings and land property function is staffed by one direct
   hire employee at the GS-14 level. The staff person’s workload has
   increased about fifty percent due to the new office buildings construction.
• The overseas buildings and land function has not been the subject of any
   audits in the last decade. On the other hand, the Department of State
   overseas buildings and land function has been reported by Department of
   State’s Office of Inspector General (two audits), the General Accounting
   Office (one audit), and Congress to be a long standing problem for the
   Department of State. The major issues have been timely disposal of
   property and accounting for the proceeds of sale of real property.
• The ADS directive is up to date, and the ADS directive references
   associated Department of State regulations.




                                                                       Page 7 of 15
                Function Description                        Risk Exposure
Overseas executive officer functional support                    High
                           Risk Assessment Factors
OMS provides direct assistance and guidance to USAID executive officers in the
field. OMS receives requests to research and identify policy and contacts within
or outside USAID, supplying information not readily available from sources
overseas, liaison with other USAID and Department of State bureaus and offices,
and trouble shooting missions’ procurement problems. OMS also helps missions
identify personnel for temporary duty coverage, disseminate regular information
bulletins, assist with opening and closing missions, and conduct management
assessment reviews at missions.

•   For fiscal year 2001, the total overseas Operating Expense (OE) dollars
    was $216 million. Of this $216 million, $70 million was for pay and
    benefits. The remaining $146 million was for items under the control of
    overseas executive officers and included $15 million for travel and $2
    million for training. The other $129 million was for other activities with a
    higher vulnerability, such as transportation for residential furniture, rental
    payments for offices and residences, utilities, maintenance, supplies and
    materials, vehicles, telecommunications.
•   Overseas equipment and furniture under the control of executive officers
    was valued at $123 million in fiscal year 2000 (10 percent of missions not
    reporting).
•   The 791 overseas vehicles under the control of executive officers were
    valued at $21 million in fiscal year 2000 (10 percent of missions not
    reporting).
•   There have been no recent independent or internal reviews of this
    function.
•   The four USAID/Washington staff members who primarily perform this
    function are the division chief and three experienced executive officers.
    The executive officers assist all the missions within the four regional
    bureaus—Africa, Asia and Near East, Europe and Eurasia, and Latin
    America and the Caribbean. They are assisted by a policy coordinator
    who has additional responsibility for the USAID/Washington Continuity
    of Operations Plan (COOP).




                                                                           Page 8 of 15
              Function Description                          Risk Exposure
Overseas executive officer functional support
(continued)                                                      High
                          Risk Assessment Factors
• Personal service contractors are relied on to provide temporary duty
   coverage for mission executive officers. OMS maintains a database of
   qualified persons available for these temporary postings. Missions may
   consult the database as needed.
• OMS conducts management assessments of the administrative functions
   of overseas posts. They are designed as a management tool to identify
   strengths and weaknesses in the following areas:
   ! acquisition;
   ! buildings and land;
   ! disaster relief;
   ! environment, safety and security;
   ! information management, communications and records;
   ! International Cooperative Administrative Support Services;
   ! personnel administration;
   ! travel and transportation; and
   ! vehicles, furniture and equipment management.

•   There is no ADS that addresses management assessment reviews. In the
    past OMS conducted these reviews based on a review cycle. USAID
    management has instructed OMS to conduct these reviews only when
    requested by a mission. OMS conducted one review in 1999, one in 2000,
    and two in 2001. USAID has approximately eighty overseas posts. The
    Department of State has a similar assessment function, which is managed
    by its Office of Inspector General. The Department of State’s Office of
    Inspector General conducts management inspections of the Department of
    State’s 260 overseas posts on a five-year cycle. These reviews are
    valuable in improving the effectiveness and efficiency of the Department
    of State’s overseas operations.
•   Since USAID has devolved responsibility and accounting to the mission
    level, a lack of systematic assessment of the management at missions
    increases the risk of missions not achieving their goals in the most
    economic and efficient manner possible. OMS has made their
    “Management Services Review Guidelines” available on their intranet
    web page. Missions may use this for self-assessment with the results of
    the assessment staying at the mission.
•   OMS provides training in Washington to new executive officers and
    regionally to existing executive officers. Two regional training
    opportunities are provided annually.




                                                                     Page 9 of 15
             Function Description                         Risk Exposure
Overseas equipment, furniture, and vehicles                     Low
                         Risk Assessment Factors
This is primarily a policy function without direct access to assets,
sensitive or otherwise. OMS provides oversight and monitoring of
compliance with policy, regulations and procedures for effective
property management. OMS makes an annual “data call” for detailed
inventory reconciliation reports on all overseas equipment, furniture and
vehicles. The required mission reports provide the information for
OMS and USAID to complete reports to USAID/M/FM (Financial
Management), General Services Administration, General Accounting
Office and Office of Management and Budget. OMS approves
standardization plans, redistribution, transfer or donation of unneeded
replacement property.
• Overseas equipment, furniture, and vehicles management is not a
    separate line item in the OMS budget.
• The sensitivity of this activity is minimal.
• Two OMS staff (GS-7, GS-9), trained as property management
    specialists, are responsible for the overseas equipment, furniture,
    and vehicles function. Only one of two property management
    specialists provided for in the staffing pattern are in place.
    However, a second property management specialist has been hired
    and will come on-board once a security clearance is granted.
• While there is a risk of submitting incorrect data that could result in
    misstated financial statements, the risk is low. OMS does not
    generate the data but instead acts in a clerical role to compile the
    data from the various missions into a single report that is then
    forwarded to USAID’s Chief Financial Officer.
• While there is a risk that equipment and furniture could be classified
    and disposed of as excess when it is not, the OMS contribution to
    that risk is minimal because there are multiple entities involved in
    the process. Missions bear a larger risk than OMS as they control
    and account for both the assets and the disposal of the assets. OMS
    only approves the request to classify the equipment and furniture as
    excess.




                                                                 Page 10 of 15
Conclusion   Our risk assessments of Overseas Management Support, Bureau for
             Management, (M/AS) covered six functions and reached the following
             conclusions.

                                                                   Risk Exposure
                       Function Description                   High   Moderate    Low
               Administrative purchasing for overseas
               posts                                                                    #
               Continuity of operations and emergency
               preparedness for USAID/Washington                          #
               operations
               Occupational health and safety including
               evacuation plans                                                         #
               Overseas buildings and land
                                                              #
               Overseas executive officer functional
               support                                        #
               Overseas equipment, furniture, and
               vehicles                                                                 #
             Based on these assessments, we suggest that Overseas Management Support
             focus its efforts to mitigate the higher risk associated with the functions of
             (1) overseas executive officer functional support and (2) overseas building and
             land. For overseas executive officer functional support, we are not making
             suggestions to mitigate high risk. As noted, there have been no recent
             independent or internal reviews of this function. In addition, no ADS
             directive addresses (nor requires) management assessment reviews. In the
             past, OMS conducted these assessments on a cycle. USAID management has
             instructed OMS to conduct these reviews only at the request of a mission. It
             appears that missions are not requesting such reviews based on the few (four)
             mission management assessment reviews completed within the last three
             years. In our opinion, the high risk of this function is primarily associated
             with the lack of such mission management assessment reviews. However,
             requiring such reviews through an ADS directive or increasing the number of
             such reviews would require a policy change by USAID management.

             Specifically for the overseas building and land program, we suggest that
             OMS:

                •   formalize an effective system for identifying surplus and
                    underutilized real property.

             The management of Overseas Management Support agreed with our risk
             assessments and our suggested course of action.

                                                                                Page 11 of 15
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment of major functions within
              Overseas Management Support (OMS) of the USAID Bureau of
              Management. This risk assessment was not an audit. The risk assessment
              covered operations principally for fiscal year 2001. The risk assessment
              fieldwork was conducted at USAID headquarters in Washington, D.C. from
              October 12, 2001 to March 25, 2002.

              Our risk assessments of Overseas Management Support’s major functions
              have the following limitations in their application.

              •   First, we assessed risk at the major function level only, not at the
                  Division or Office level.
              •   Second, we assessed risk only. Our risk assessments were not sufficient
                  to make definitive determinations of the effectiveness of internal controls
                  for major functions. Consequently, we did not generally (a) assess the
                  adequacy of internal control design, (b) determine if controls were
                  properly implemented, and (c) determine if transactions were properly
                  documented. If we were able to make these types of determinations
                  within the scope of our work, we reported on them accordingly as part of
                  our risk exposure assessments.
              •   Third, higher risk exposure assessments are not definitive indicators that
                  program objectives were not being achieved or that irregularities were
                  occurring. A higher risk exposure simply indicates that the particular
                  function is more vulnerable to such events.
              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider
                  both internal and external factors, some being outside the span of control
                  of management.
              •   Fifth, comparison of risk exposure assessments between organizational
                  units is of limited usefulness due to the fact that risk assessments
                  consider both internal and external factors, some being outside the span
                  of control of management.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by Overseas Management Support. These documents
              covered background, organization, management, budget, relevant laws and
              regulations, staffing responsibilities, prior reviews, internal controls, and
              risks (i.e., vulnerabilities). Our review of Overseas Management Support’s
              documentation was limited and judgmental in nature and conducted
              principally to confirm oral attestations of management.

                                                                                     Page 12 of 15
We identified Overseas Management Support’s major functions using the
input of OMS’s Director and based on the significance and sensitivity of each
major function. We determined risk exposure for all major functions in each
division, e.g., the likelihood of significant abuse, illegal acts, and/or misuse of
resources, failure to achieve program objectives, and noncompliance with
laws, regulations and management policies. We assessed overall risk as high,
moderate, or low. A higher risk exposure simply indicates that the particular
function is more vulnerable to its program objectives not being achieved or
that irregularities were occurring. We considered the following key steps in
assessing risk:

(a)    determined significance and sensitivity;
(b)    evaluated susceptibility of failure to attain program goals,
       noncompliance with laws and regulations, inaccurate reporting, or
       illegal or inappropriate use of assets or resources;
(c)    were alert to "red" flags such as a history of improper administration
       or material weaknesses identified in prior audits/internal control
       assessments, poorly defined and documented internal control
       procedures, or high rate of personnel turnover;
(d)    considered management support and the control environment;
(e)    considered competence and adequacy of number of personnel;
(f)    identified and understand relevant internal controls, and
(g)    determined what is already known about internal control effectiveness.

These risk assessments were not sufficient to make definitive determinations
of the effectiveness of internal controls for major functions. As part of the
review methodology, we did (a) identify, understand, and document (only as
necessary) relevant internal controls and (b) determine what was already
known about the effectiveness of internal controls. However, we did not
generally (a) assess the adequacy of internal control design, (b) determine if
controls were properly implemented, nor (c) determine if transactions were
properly documented. In some cases, we were able to make these assessments
and reported on them accordingly as part our risk exposure assessments.




                                                                       Page 13 of 15
                                                                        Appendix II

Management
Comments
                                                        July 29, 2002




             MEMORANDUM

             TO:          Melinda Dempsey, IG/A/ITSA

             FROM:        Stephen Callahan, M/OMS

             SUBJECT:     Risk Assessment of Major Functions Within the Overseas
                          Management Support Division.
                          (Report No. A-000-02-xxx-S)


                   Overseas Management Support (M/OMS) has no objections to the
             designated Risk Exposure ratings and the suggestion provided by the
             OIG.

                   Formalize an effective system for identifying surplus and
             underutilized real property.

                   M/OMS recognizes the high risk inherent in the management of
             overseas buildings and land. In addition to the cost of leasing
             property in over 70 foreign countries, the government-owned
             properties represent a substantial investment for USAID. M/OMS has
             maintained records of all real property and will review those
             records annually to identify property that is potentially surplus
             or underutilized.

                   In addition, M/OMS will ensure that the Mission Director’s
             annual certification report which indicates that USG properties are
             properly used and managed, be submitted directly to M/OMS, as well
             as to the Department of State.

                   Executive Officers at all overseas posts will be contacted
             and requested to identify surplus or underutilized USAID-owned real
             property in their respective countries. This request will be re-
             issued on an annual basis to coincide with the standard real
             property reporting requirement for overseas missions.

                   M/OMS will undertake a review of real property records with
             particular focus on property in countries in which USAID no longer
             has a presence. In cases where an agreement may be in place with
             another government agency for the use of such property, M/OMS will
             verify that the terms of the agreement remain valid and that it is
             in the interest of the government that the agreement remains in
             effect. In cases where continued ownership of the property is not
             determined to be in the interest of the government, M/OMS will take
             action to dispose of the property.



                                                                        Page 14 of 15
      M/OMS will continue to focus efforts on the mitigation of
risk and particularly on risks associated with overseas executive
officer functional support and overseas buildings and land. We
appreciate the professionalism demonstrated in the performance of
this risk assessment review and look forward to the successful
implementation of your suggestion.




                                                          Page 15 of 15
